                         U.S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL




                            AUDIT OF THE
            DEACTIVATION, DECONTAMINATION, AND DISPOSAL
                    OF SURPLUS FACILITIES AT THE
                        SAVANNAH RIVER SITE


The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative addresses:

                      Department of Energy Headquarters Gopher
                                 gopher.hr.doe.gov

                 Department of Energy Headquarters Anonymous FTP
                                vm1.hqadmin.doe.gov

        Department of Energy Human Resources and Administration Home Page
                              http://www.hr.doe.gov/ig

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.

                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831



Report Number: ER-B-98-01                              Eastern Regional Audit Office
Date of Issue: October 23, 1997                        Oak Ridge, TN 37830



                                           1
                            AUDIT OF THE
            DEACTIVATION, DECONTAMINATION, AND DISPOSAL
                    OF SURPLUS FACILITIES AT THE
                        SAVANNAH RIVER SITE



                                     TABLE OF CONTENTS



                                                                                                                Page

             SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

PART I     - APPROACH AND OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . .                            2

             Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     2

             Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              2

             Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       3

PART II    - FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . .                                      5

             Deactivation, Decontamination, and Disposal of Surplus Facilities . .                                5

PART III   - MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . . . . .                                              9




                                                      2
                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL
                             OFFICE OF AUDIT SERVICES

                             AUDIT OF THE
             DEACTIVATION, DECONTAMINATION, AND DISPOSAL
                     OF SURPLUS FACILITIES AT THE
                         SAVANNAH RIVER SITE


Audit Report Number: ER-B-98-01


                                        SUMMARY

        Westinghouse Savannah River Company (Westinghouse) is responsible for
managing the Department of Energy’s (Department) surplus facilities at the Savannah
River Site (Site). In Fiscal Year (FY) 1996, the Site had 162 surplus facilities and
anticipated that 118 more would become surplus within the next 5 years. The objective of
this audit was to determine whether the Savannah River Operations Office (Operations
Office) and Westinghouse had economically and promptly deactivated, decontaminated,
and disposed of surplus facilities at the Site.

         Departmental regulations require that surplus facilities be deactivated,
decontaminated, and disposed of economically and promptly. However, Westinghouse
only disposed of one facility and did not completely deactivate or decontaminate any of
the 162 facilities identified as surplus at the Site in FY 1996. This occurred because the
Operations Office did not compile a Site-wide list, establish priorities, or provide sufficient
funding for the deactivation, decontamination, and disposal of surplus facilities. As a
result, the Department incurred unnecessary costs for the surveillance and maintenance of
surplus facilities. For example, the Department could have avoided annual costs of about
$1.3 million in surveillance and maintenance costs by spending $1.2 million to perform a
deactivation project on the P-Reactor process-water storage tanks. The Operations Office
could have funded the project out of its unobligated FY 1996 operating funds. However,
it returned the unobligated funds to the Department’s Headquarters at the end of the fiscal
year.

         The Operations Office concurred with the finding and recommendations and
initiated corrective action.



                                                                            /s/
                                                              Office of Inspector General
                                           PART I

                              APPROACH AND OVERVIEW


INTRODUCTION

         For over 35 years, the Savannah River Site (Site) used nuclear reactors to fulfill its
primary mission of producing tritium and other radioisotopes for use in defense related
activities. Beginning in 1988, however, the Department of Energy (Department) shut
down the last of the Site’s operating reactors and changed the Site’s mission from
producing nuclear materials to managing the waste products generated. As its mission
changed, many of the Site’s facilities became surplus to the Department’s needs. In Fiscal
Year (FY) 1996, the Site had 162 surplus facilities and expected that 118 more would
become surplus in the next 5 years. The objective of this audit was to determine whether
the Savannah River Operations Office (Operations Office) and Westinghouse Savannah
River Company (Westinghouse) had economically and promptly deactivated,
decontaminated, and disposed of surplus facilities at the Site.

SCOPE AND METHODOLOGY

       The audit was performed at the Site from June 12, 1996, through March 14, 1997.
To accomplish the audit objective, we:

         •    Reviewed applicable Federal and Departmental regulations regarding
              management of surplus facilities;

         •    Interviewed finance, budget, and project managers from the Operations
              Office and Westinghouse who were responsible for managing surplus
              facilities at the Site; and

         •    Reviewed and evaluated documentation pertaining to the current and
              historical costs of maintaining surplus facilities at the Site.

         The audit was conducted in accordance with generally accepted Government
auditing standards for performance audits, and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the objective of the
audit. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We relied on
computer-generated data during this audit. Specifically, we used the Department’s
financial system containing the actual costs for surplus facilities. We did not perform steps
during this audit to independently verify the reliability of this system because the reliability
was tested in both the Audit of the U.S. Department of Energy’s Consolidated Financial
Statements for Fiscal Year 1996 and the Audit of the Statement of Costs Incurred and
Claimed for Fiscal Year 1995. Thus we relied on the work performed in both of these
earlier audits.

                                               2
        In our opinion, the matters discussed in this report identified material internal
control weaknesses within the Department that should be considered when preparing the
yearend assurance memorandum on internal controls. Internal control weaknesses
identified in the report are discussed in Part II.

      We held an exit conference with the Assistant Manager, Environmental Quality,
Savannah River Operations Office, on October 15, 1997.


BACKGROUND

         Departmental Order 4330.5 provides a structured and cost-effective approach for
transferring surplus facilities to the Office of Environmental Management (EM). A more
detailed description of the facility transition process was presented in the
Decommissioning Resource Manual, (DOE/EM-0246, August 1995), which was issued
by EM in draft form as a resource guide. After the completion of our audit work, EM
issued in draft form a Decommissioning Resource Guide (DOE G 4Y-X. 1-4, Version 1.0,
April 1997), which, if finalized, will be a successor to the Decommissioning Resource
Manual. In accordance with Departmental Orders and the Decommissioning Resource
Manual, Program Secretarial Officers are responsible for identifying facilities which are
surplus to their needs and reporting these facilities to the Office of Field Management
(FM). FM determines whether surplus facilities can be used elsewhere in the Department.
If so, responsibility for the facilities is transferred to the new owners. If the surplus
facilities cannot be used elsewhere in the Department, FM determines if the facilities
qualify for disposition through the General Services Administration (GSA). If so, GSA
handles the disposition of such facilities; if not, the facilities may be transferred to EM to
be prepared for transfer to GSA.

         EM is responsible for surplus facilities until they are made ready for disposal. The
Office of Nuclear Material and Facility Stabilization (EM-60) is responsible for accepting
surplus contaminated facilities for EM and presiding over the transition of these facilities
from an operational status through deactivation. However, EM has not accepted excess
facilities since 1996 in an effort to stabilize the scope of its program and allow it to focus
resources on current facilities. Deactivation is defined as the process of placing a facility
in a safe and stable condition to minimize the long-term cost of surveillance and
maintenance. EM-60 is also responsible for the stabilization of nuclear materials no longer
needed. The Office of Environmental Restoration (EM-40) is responsible for the
decommissioning of surplus facilities, including surveillance and maintenance, and the
remediation of contaminated properties. Decommissioning is the action taken at the end
of the life of a facility to retire it from service with the ultimate goal of unrestricted release
or restricted use of the facility.

        While facilities are in the transition process, they require surveillance and
maintenance to keep safety and health risks within acceptable parameters. The costs
associated with surveillance and maintenance include environmental sampling, preventive
maintenance, utilities, and safeguards and security. During FY 1996, the Operations
Office spent $319.7 million for surveillance and maintenance activities at the Site.
                                                3
                                           PART II

                         FINDING AND RECOMMENDATIONS


Deactivation, Decontamination, and Disposal of Surplus Facilities

         Departmental regulations require that surplus facilities be deactivated,
decontaminated, and disposed of economically and promptly. However, Westinghouse
only disposed of one facility and did not completely deactivate or decontaminate any of
the 162 facilities identified as surplus at the Site in FY 1996. This occurred because the
Operations Office did not compile a Site-wide list, establish priorities, or provide sufficient
funding for the deactivation, decontamination, and disposal of surplus facilities. As a
result, the Department incurred unnecessary costs for the surveillance and maintenance of
surplus facilities. For example, the Department could have avoided annual costs of about
$1.3 million in surveillance and maintenance costs by spending $1.2 million to perform a
deactivation project on the P-Reactor process-water storage tanks.


RECOMMENDATIONS

       We recommend that the Manager, Savannah River Operations Office:

       1.    Compile and maintain a list of all deactivation and decontamination activities
             which are necessary prior to the disposal of surplus facilities at the Site;

       2.    Establish Site-wide priorities for the deactivation, decontamination, and
             disposal of surplus facilities at the Site in accordance with Departmental
             Order 5820.2A; and

       3.    Annually request from the Department sufficient funding to implement an
             effective deactivation, decontamination, and disposal plan.


MANAGEMENT REACTION

        Management concurred with the finding and recommendations and initiated
corrective action. Details of management's comments are contained in Part III.




                                               4
                                 DETAILS OF FINDING


DEPARTMENTAL REQUIREMENTS

        Departmental regulations require that surplus contaminated facilities be
deactivated, decontaminated, and disposed of efficiently, economically, and promptly.
Departmental Order 4300.1C, Real Property Management, requires that all real property
holdings be managed efficiently, economically, and safely, and that all unneeded property
be disposed of promptly. Departmental Order 5820.2A, Radioactive Waste Management,
requires that radioactively contaminated facilities be managed in a safe, cost-effective
manner, and that surplus contaminated facilities be identified and scheduled for
decommissioning.


ACTIVITIES AT THE SAVANNAH RIVER SITE

         The Department did not economically or promptly deactivate, decontaminate, or
dispose of surplus facilities at the Site. In FY 1996, the Operations Office identified
162 facilities as surplus and an additional 118 facilities that were expected to become
surplus within the next 5 years. Only one of the 162 surplus facilities was disposed of
during FY 1996. Westinghouse performed partial deactivation and decontamination
activities on some of the surplus facilities; however, it did not completely deactivate or
decontaminate any facilities during the year. During FY 1997, Westinghouse disposed of
one more facility. It also performed partial deactivation and/or decontamination activities
on six facilities at the Heavy Water Components Test Reactor (HWCTR) which have not
been completed.

         Further, the Operations Office planned to continue this low level of activity. It did
not plan to start any substantial deactivation, decontamination, or decommissioning
projects at the Site before FY 2006. The Operations Office stated in its 10-year
environmental management plan, Accelerating Cleanup: Focus on 2006, Discussion
Draft, that if the low-funding case is approved and funded, no deactivation projects will be
started before FY 2006. If the high-funding case is approved and funded, only the
R-Reactor disassembly basin will be deactivated. Regardless of which case is approved
and funded, no decontamination and decommissioning activities are planned before
FY 2006 except for some at the HWCTR. The only disposal activity currently planned is
limited to the award of a firm fixed-price contract, during FY 1998, for disposal of three
facilities at the HWCTR.


IDENTIFICATION, PRIORITIZATION, AND FUNDING

        Contrary to Departmental requirements, the Operations Office did not compile a
Site-wide list to identify the activities which were necessary prior to the disposal of
surplus facilities. These activities typically include stabilization, deactivation, and
decontamination, which must be completed prior to actual disposal. Compiling a list of
                                              5
these activities for each surplus facility is a necessary first step toward organizing and
completing the disposal process.

       Also, the Operations Office did not prioritize the order in which Westinghouse
should deactivate and decontaminate the surplus facilities. The lack of Site-wide priorities
made it difficult for Westinghouse to determine the appropriate order in which to
complete necessary activities while meeting the Department’s economic, safety, and health
goals.

        Additionally, the Operations Office did not provide sufficient funding for several
worthwhile deactivation projects. Westinghouse estimated that the Department could
avoid $59.6 million in surveillance and maintenance costs between FY 1996 and FY 2006
by performing deactivation projects at 6 excess facilities, at a cost of $12.3 million.
Westinghouse performed work on several of these deactivation projects in FY 1996,
which were projected to save an estimated $50.5 million in surveillance and maintenance
costs through FY 2006. However, because some of the projects were not funded, they
were not performed, and the Department missed an opportunity to avoid an additional
$9.1 million through FY 2006.

         One of the unperformed deactivation projects could have been executed using
funds available in FY 1996 if the Operations Office had not returned $1.4 million to the
Department’s Headquarters. The P-Reactor process-water storage tanks contained
tritiated heavy water which required Westinghouse to perform surveillance and
maintenance to ensure containment. Westinghouse determined that by transferring the
tritiated heavy water from the P-Reactor to the K-Reactor or L-Reactor, at a cost of about
$1.2 million, it could have reduced overall surveillance and maintenance costs by
$8 million through FY 2006. The Operations Office had sufficient unobligated operating
funds in FY 1996 to complete this deactivation activity. However, at the end of the year,
the Operations Office returned $1.4 million of unobligated operating funds to the
Department’s Headquarters instead of funding the P-Reactor project.


POTENTIAL COST SAVINGS

         As demonstrated by the examples discussed above, the Department could have
avoided millions of dollars annually in surveillance and maintenance costs by deactivating,
decontaminating, and disposing of surplus facilities. However, for three reasons, we could
not determine the full extent of potential savings available to the Department. First, the
Operations Office did not separately account for all the costs associated with leaving
facilities in a surplus status. Second, the Operations Office had not determined how much
it would cost to prepare surplus facilities for disposal. And third, the Operations Office
had not estimated the cost avoidance that could be realized by performing each necessary
deactivation, decontamination, and disposal activity. Without these values, it is not
possible to quantify the total cost avoidance that could have been realized. However, the
P-Reactor project alone provided the Department with an opportunity to save $1.3 million
annually after a one-time expense of only $1.2 million.

                                               6
                                          PART III

                    MANAGEMENT AND AUDITOR COMMENTS


         The Operations Office concurred with the finding and recommendations and
initiated corrective action. A summary of management's comments and our replies
follows.

Recommendation No. 1

         Recommendation. We recommended that the Manager, Savannah River
Operations Office, compile and maintain a list of all deactivation and decontamination
activities which are necessary prior to the disposal of surplus facilities at the Site.

        Management Comments. Concur. The Operations Office has already directed that
Westinghouse develop a comprehensive approach and plan for the execution of an
integrated deactivation, decontamination, and decommissioning program. Westinghouse
has drafted a Management Policy for planning and executing a disposition program for
excess Site facilities as well as a Site Excess Facilities Disposition Plan that describes the
site-wide discipline and uniform facility disposition process. Approval and implementation
of these practices should occur by December 30, 1997.

      Auditor Comments. Management's intended actions are responsive to the
recommendation.

Recommendation No. 2

       Recommendation. We recommended that the Manager, Savannah River
Operations Office, establish Site-wide priorities for the deactivation, decontamination, and
disposal of surplus facilities at the Site in accordance with Departmental Order 5820.2A.

        Management Comments. Concur. The Operations Office directed that
Westinghouse develop and maintain a priority listing for ongoing and potential disposition
projects. This listing will update the facility-oriented risk assessment previously issued in
the SRS Surplus Facility Inventory and Assessment Database FY 1996 Updated (U)
(EFR-RDD-960016). The priority listing will comply with requirements contained in
DOE 5820.2A and DRAFT DOE 4xx.1 and DRAFT Facility Disposition Manual 4XX.1.1
(which will cancel Chapter V of DOE 5820.2A). The Operations Office expects to use
the priority listing during formulation of the FY 1999 budget submittal, although outyear
funding projections provided by Departmental Headquarters and reflecting the views of
the Office of Management and Budget (OMB) would appear to indicate a sustained
deferral of discretionary non-time-critical disposition activities.

      Auditor Comments. Management's intended actions are responsive to the
recommendation.

                                              7
Recommendation No. 3

        Recommendation. We recommended that the Manager, Savannah River
Operations Office, annually request from the Department sufficient funding to implement
an effective deactivation, decontamination, and disposal plan.

        Management Comments. Concur. The Operations Office estimates resource
requirements for deactivation, decontamination, and disposal activities as part of its annual
budget submission to Headquarters. Resource requirements are reflected in an integrated
Site-wide priority list that considers, among other things, worker safety, public health,
pollution control, and environmental protection as well as Departmental performance
expectations and stakeholder views. The scope of work associated with an integrated
excess facility disposal program is reflected in the Site-wide priority list; however, as a
practical matter, discretionary work is being deferred, a decision that reflects the relatively
lower risk posed by excess facilities under surveillance and institutional controls.

         Auditor Comments. Management's comments indicate a desire to obtain sufficient
funds to implement an effective deactivation, decontamination, and disposal plan.
Completion of recommendations 1 and 2 will help to support the Operations Office's
efforts to obtain those funds. We believe future budget requests will be more persuasive if
they contain the details to support the costs and benefits to be derived from each required
project.




                                               8
                                                                      IG Report No. ER-B-98-01




                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

        1.       What additional background information about the selection,
                 scheduling, scope, or procedures of the audit or inspection would have
                 been helpful to the reader in understanding this report?

        2.       What additional information related to findings and recommendations
                 could have been included in this report to assist management in
                 implementing corrective actions?

        3.       What format, stylistic, or organizational changes might have made this report's
                 overall message more clear to the reader?

        4.       What additional actions could the Office of Inspector General have taken on the
                 issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

        Office of Inspector General (IG-1)
        U.S. Department of Energy
        Washington, D.C. 20585
        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.




                                                     9
